Department of Health and Human Services 

                   OFFICE OF 

              INSPECTOR GENERAL 



CENTRAL FLORIDA COMMUNITY 

ACTION AGENCY, INC., DID NOT 

 ALWAYS CHARGE ALLOWABLE 

  COSTS TO THE COMMUNITY 

  SERVICES BLOCK GRANT­

   RECOVERY ACT PROGRAM 




  Inquiries about this report may be addressed to the Office ofPublic Affairs at 

                           Public.Af[airs@oig.hhs.gov. 





                                                    LoriS. Pilcher
                                               Regional Inspector General

                                                       .April2013
                                                      A·04·11·01008
                        Office ofInspector General
                                         https:/ / oig.hhs.gov



The mission of the Office oflnspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments ofHHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations

The Office oflnvestigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts ofOI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig . hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.


OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L. No.
105-285 (the CSBG Act), to provide funds to alleviate poverty in communities. Within the U.S.
Department of Health and Human Services, the Administration for Children and Families (ACF),
Office of Community Services administers the CSBG program. The CSBG program funds a
State-administered network of more than 1,000 local Community Action Agencies (CAA) that
create, coordinate, and deliver programs and services to low-income Americans. The CAAs
provide services and activities addressing employment, education, housing, nutrition, emergency
services, health, and better use of available income. The CSBG program awarded $620 million
in fiscal year (FY) 2007, $643 million in FY 2008, $1.7 billion in FY 2009, and $689 million in
FY 2010.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided $1 billion to ACF for the CSBG program in addition to its regular
appropriation. CSBG Recovery Act funds were distributed to CAAs using an existing statutory
formula. The primary objective of the CSBG funding was to provide assistance to States and
local communities, working through a network of community action agencies and other
neighborhood-based organizations, for the reduction of poverty, revitalization of low-income
communities, and empowerment of low-income families and individuals in rural and urban areas
to become fully self-sufficient.

Section 676(a) of the CSBG Act requires each State to designate an appropriate State agency to
act as the lead agency for carrying out the State's CSBG activities. Florida's Department of
Community Affairs (the State) acted as the lead agency to carry out State activities for the CSBG
program during our audit period. The State is responsible for approving CAA Recovery Act
grant applications and monitoring CAAs for compliance with program requirements. The State
received $29,060,460 in Recovery Act funds for the State of Florida's CSBG program.

Central Florida Community Action Agency, Inc. (the Agency), a private, nonprofit organization,
provides services to households throughout Alachua, Levy, and Marion counties in Florida.
During FY 2009, the State awarded the Agency $605,245 in CSBG grant funds and $944,122 in
CSBG Recovery Act funds for the period July 1, 2009, through September 30, 2010.

OBJECTIVE

Our objective was to determine whether selected CSBG costs that the State claimed for the
Agency's program expenditures were allowable under the terms of the Recovery Act grant and
applicable Federal regulations.
SUMMARY OF FINDINGS 


Of the $325,576 in CSBG costs that the State claimed on behalf ofthe Agency and that we
reviewed, $165,172 was allowable under the terms ofthe grant and applicable Federal
regulations. However, the State claimed $122,324 in costs (or 38 percent of reviewed
expenditures) that may not have been allocable to the Recovery Act grant and thus were
potentially unallowable. The State also claimed $38,080 in unallowable costs (or 12 percent of
reviewed expenditures) on behalf of the Agency, including:

   • 	 $34, 143 in costs that were inadequately documented and

   • 	 $3,937 in costs that were incurred outside ofthe grant period.

The potentially unallowable costs the State claimed on behalf ofthe Agency occurred because
the Agency's method for allocating costs to Federal awards was not compliant with 2 CFR part
230. The unallowable costs the State claimed on behalf of the Agency occurred because the
Agency did not follow its own policies and procedures for providing purchase requisitions,
receipts, and other necessary supporting documentation for accounts payable transactions and
travel-related expenditures. Furthermore, the Agency's policies and procedures were inadequate
to ensure that the Agency charged to the grant only those costs properly incurred during the
Recovery Act budget period.

Because the Agency charged unallowable costs to the Recovery Act grant, these funds could not
be used to reduce poverty, revitalize low income communities, and empower individuals to
become fully self-sufficient.

RECOMMENDATIONS

We recommend that the State:

   • 	 either return to the Federal government $122,324 or work with the Agency to determine
       what portion ofthe $122,324 was allocable to the Recovery Act grant,

   • 	 return to the Federal Government unallowable costs totaling $38,080,

   • 	 ensure that the Agency uses a method for allocating costs to Federal awards that is
       compliant with 2 CFR part 230, and

   • 	 ensure that the Agency revises and follows its policies and procedures regarding the
       adequate documentation of all costs charged under Federal awards and the charging of
       costs during a grant period.




                                               11
AGENCY COMMENTS 


The Agency did not concur with all of our findings regarding allowability of costs. However, it
did concur that $4,867 was not allocable to the Recovery Act grant.

The Agency said that it calculated percentages to allocate costs to its grants based on square
footage and that it had documented the percentages, which had been approved by its Board of
Directors and the State, in the grant files.

The Agency also said that it had adequately documented with a voucher and signed invoice the
costs that we had identified as inadequately documented. The Agency also provided screen
printouts from its accounting software to document these costs.

Lastly, the Agency said that costs for services that occurred after the end of the grant were
allowable because it had recorded the costs during the grant period and because it used a
modified cash basis of accounting.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that the State claimed on behalf of the Agency $122,324 in costs that may not have
been allocable to the Recovery Act grant and $38,080 in unallowable costs.

Although the Agency stated that the calculations for its allocation percentages were approved
and documented in the grant award documents, we did not find this documentation in either the
Agency-provided or State-provided documents.

The Agency also did not provide documentation showing why certain costs, totaling $34,143,
were necessary.

By charging costs for services provided outside of the grant period, the Agency did not adhere to
the limitations contained in ACF's Information Memorandum Transmittal No. 109, which states
that, if using a cash accounting system, services related to the Recovery Act must be provided on
or before September 30, 2010.

STATE COMMENTS

In response to our draft report, the State concurred that the Agency made unallowable charges to
the Recovery Act grant of $4,867. However, the State explained that it had obtained supporting
documentation from the Agency for all of the other costs that we identified as unallowable and
potentially unallowable. It said that the Agency charged direct costs when the costs were
incurred for a specific grant requirement and allocated indirect costs using only the portion ofthe
costs that applied to the grant. The State also said the Agency's budget summary and work plan
documents incorporated in the grant award document justified the expenditures we identified as
unallowable costs.



                                                111
Nonetheless, the State explained that it planned to visit the Agency to ensure that it improved its
policies and procedures for documenting costs charged to Federal awards and to ensure that the
Agency is compliant with 2 CFR part 230 in allocating costs to Federal awards.

OFFICE OF INSPECTOR GENERAL RESPONSE

We partially revised our findings based on new documentation from the Agency provided by the
State. We removed $15,151 in costs we had initially identified as unallowable costs and added
these items to potentially unallowable costs. For the remaining costs we had identified as
unallowable or potentially unallowable, we maintain that these items were either not necessarily
allocable to the Recovery Act grant or not adequately documented.




                                                lV
                                                  TABLE OF CONTENTS 




INTRODUCTION................................................................................................................ 1 


          BACKGROUND ...................................................................................................... . 1 

              Community Services Block Grant Program ................................................. . 1 

              Florida Department of Community Affairs ..................... ....................... ...... . 1 

              Central Florida Community Action Agency, Inc ........................................... 1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ..................................................... 2 

               Objective ........................................................................................................ 2 

               Scope..............................................................................................................2 

               Methodology ..................................................................................................2 


FINDINGS AND RECOMMENDATIONS ...................................................................... 3 


          UNALLOWABLE COSTS .......................................................................................4 

              Federal Requirements and State Guidance ................................................... .4 

              Costs Potentially Not Allocable ...................................... ... ..................... ...... .4 

              Costs Inadequately Documented.................................................................... 5 

              Costs Incurred Outside the CSBG Recovery Act Program Period ........ .......7 


          RECOMMENDATIONS ...........................................................................................7 


          AGENCY COMMENTS ........................................................................................... 8 


          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................ 8 


          STATE COMMENTS ...............................................................................................9 


          OFFICE OF INSPECTOR GENERAL RESPONSE ................. ... ..................... .......9 


APPENDIXES

          A: AGENCY COMMENTS

          B: STATE COMMENTS




                                                                    v
                                           INTRODUCTION 


BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L. No.
105-285 (the CSBG Act), to provide funds to alleviate poverty in communities. Within the U.S.
Department of Health and Human Services, the Administration for Children and Families (ACF),
Office of Community Services administers the CSBG program. The CSBG program funds a
State-administered network of more than 1,000 local Community Action Agencies (CAA) that
create, coordinate, and deliver programs and services to low-income Americans. The CAAs
provide services and activities addressing employment, education, housing, nutrition, emergency
services, health, and better use of available income. The CSBG program awarded $620 million
in fiscal year (FY) 2007, $643 million in FY 2008, $1.7 billion in FY 2009, and $689 million in
FY 2010.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided $1 billion to ACF for the CSBG program in addition to its regular
appropriation. Recovery Act funds for the CSBG program were distributed to CAAs using an
existing statutory formula. The primary objective of these funds was to provide assistance to
States and local communities, working through a network of community action agencies and
other neighborhood-based organizations, for the reduction of poverty, revitalization of low­
income communities, and empowerment of low-income families and individuals in rural and
urban areas to become fully self-sufficient.

Florida Department of Community Affairs

Section 676(a) of the CSBG Act requires each State to designate an appropriate State agency to
act as the lead agency for carrying out the State's CSBG activities. Florida's Department of
Community Affairs (the State) acted as the lead agency to carry out State activities for the CSBG
program. 1 The State is responsible for approving CAA Recovery Act grant applications and
monitoring CAAs for compliance with program requirements. The State received $29,060,460
in Recovery Act funds for the State of Florida's CSBG program.

Central Florida Community Action Agency, Inc.

Central Florida Community Action Agency, Inc. (the Agency), a private, nonprofit organization,
provides services to households throughout Alachua, Levy, and Marion counties in Florida.
During FY 2009, the State awarded the Agency $605,245 in CSBG grant funds and $944,122 in
CSBG Recovery Act funds for the period July 1, 2009, through September 30, 2010.

1
 During our audit period, the Florida Department of Community Affairs oversaw the CSBG program. However, the
CSBG program is now administered by the Department of Economic Opportunity.

                                                     1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether selected CSBG costs that the State claimed for the
Agency's program expenditures were allowable under the terms of the Recovery Act grant and
applicable Federal regulations.

Scope

We reviewed $325,576 of the $944,122 claimed by the Agency under its CSBG Recovery Act
agreement with the State of Florida for the period of July 1, 2009, through September 30, 2010.
This review is part of a series of audits planned by the Office of Inspector General to provide
oversight of funds provided by the Recovery Act. We did not perform an overall assessment of
the Agency's internal control structure. Rather, we reviewed only the internal controls that
pertained to our objective.

We performed fieldwork at the Agency's administrative office in Gainesville, Florida.

Methodology

To accomplish our objective, we:

    • 	 reviewed relevant Federal requirements;

    • 	 confirmed that the Agency was not excluded from receiving Federal funds;

    • 	 reviewed the terms and conditions of the CSBG Recovery Act agreement between the
        Agency and the State;

    • 	 reviewed the Agency's State monitoring report dated June 20, 2011;

    • 	 reviewed the Agency's policies and procedures applicable to the CSBG program;

    • 	 reviewed the Agency's cost allocation plan;

    • 	 reviewed the minutes from the Agency's board of directors meetings and reviewed the
        Agency's organizational chart;

    • 	 reviewed the Agency's annual Office of Management and Budget (OMB) Circular
        A-133 2 audit reports for FYs 2008 through 2010;

2
 Per O:tvfB Circular A-133, §_ .200(a) non-Federal entities that expend $500,000 or more in a year in Federal
awards shall have a single or program-specific audit conducted for that year.

                                                        2

   • 	 reconciled the Agency's CSBG Recovery Act financial status report for the year ended
       September 30, 2010, to its accounting records;

   • 	 judgmentally selected and reviewed 271 transactions totaling $325,576 (30 salary
       transactions totaling $12,400 and 241 nonsalary transactions totaling $313,176) based on
       risk factors including whether the transactions:

           o 	 were high dollar,

           o 	 were for items usually considered unallowable (e.g., entertainment, memberships,
               etc.),

           o 	 were recorded near the end of the grant period or outside of the grant period, or

           o 	 appeared to be disproportionately allocated to the CSBG Recovery Act grant;
               and

   • 	 discussed findings with Agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

Of the $325,576 in CSBG costs that the State claimed on behalf ofthe Agency and that we
reviewed, $165,172 was allowable under the terms ofthe grant and applicable Federal
regulations. However, the State claimed $122,324 in costs (or 38 percent of reviewed
expenditures) that may not have been allocable to the Recovery Act grant and thus were
potentially unallowable. The State also claimed $38,080 in unallowable costs (or 12 percent of
reviewed expenditures) on behalf of the Agency, including:

   • 	 $34,143 in costs that were inadequately documented and

   • 	 $3,937 in costs that were incurred outside ofthe grant period.

The potentially unallowable costs the State claimed on behalf ofthe Agency occurred because
the Agency's method for allocating costs to Federal awards was not compliant with the
applicable cost principles at 2 CFR part 230. The unallowable costs the State claimed on behalf
ofthe Agency occurred because the Agency did not follow its own policies and procedures for
providing purchase requisitions, receipts, and other necessary supporting documentation for


                                                3

accounts payable transactions and travel-related expenditures. Furthermore, the Agency's
policies and procedures were inadequate to ensure that the Agency charged to the grant only
those costs properly incurred during the Recovery Act budget period.

Because the Agency charged unallowable costs to the Recovery Act grant, these funds could not
be used to reduce poverty, revitalize low income communities, and empower individuals to
become fully self-sufficient.

UNALLOWABLE COSTS

Federal Requirements and State Guidance

Section 678D(a)(1)(B) ofthe CSBG Act requires that States that receive CSBG funds ensure that
cost and accounting standards of the OMB apply to a recipient of the funds under this subtitle.
As a result, ACF determined that non-profit Community Action Agencies are subject to 45 CFR
part 74. Federal regulations ( 45 CFR § 74.27(a)) state that the allowability of costs for non­
profit organizations will be determined in accordance with 2 CFR part 230 (OMB Circular A­
122), Cost Principles for Non-Profit Organizations.

To be allowable under a Federal award, costs must be reasonable, allocable, and adequately
documented (2 CFR part 230, App. A,§§ A.2.a. and A.2.g.).

A cost that benefits both a Federal award and other work is allocable to a Federal award if the
cost can be distributed in reasonable proportion to the benefits received. Any cost allocable to a
particular award or other cost objective may not be shifted to other Federal awards to overcome
funding deficiencies, or to avoid restrictions imposed by law or by terms ofthe award (2 CFR
part 230, App. A, § A.4).

Salary and wage costs should be based on documented payrolls and the distribution to awards
must be supported by persollllel activity reports (2 CFR part 230, App. B, § 8.m.(1)).

Recipients of Federal funds must develop written procedures for determining the reasonableness,
allocability, and allowability of costs in accordance with the provisions ofthe applicable Federal
cost principles and the terms and conditions ofthe award (45 CFR § 74.21(b)(6)).

If using a cash accounting system, services related to the CSBG Recovery Act grant must be
provided on or before September 30, 2010 (Information Memorandum Transmittal No. 1 09).

In its Guidance on Cost Allocation Planning, the State stipulated that grant dollars received
could not be used as a basis for allocating costs.

Costs Potentially Not Allocable

The Agency allocated $122,324 in certain costs benefitting multiple projects to the Recovery Act
grant that may not have been allocable to that award. In reviewing individual transactions, we

                                                4

found that the Agency had allocated varying percentages of costs to the Recovery Act grant. For
example, for transactions we reviewed that occurred during the month of September 2009, the
Agency charged anywhere from 27 percent to 42 percent of these costs to the Recovery Act
grant. In April2010, the Agency charged anywhere from 18 to 36 percent ofthese costs to the
grant. In September 2010, the Agency charged anywhere from 20 to 50 percent ofthese costs to
the grant. In some cases, the Agency charged the entire amount of such costs as direct costs to
                        3
the Recovery Act grant. According to the Agency, each time it received a new award, it
recalculated the percentage of costs to be allocated to the Recovery Act grant. However, the
Agency did not retain documentation tracking the changes it made to the allocation percentages.
Without supporting documentation, we could not determine whether the costs were allocated to
the Recovery Act grant in reasonable proportion to the benefits received. Therefore, we cannot
determine whether the $122,324 that the Agency charged to the Recovery Act grant was
allowable.

The Agency charged these potentially unallowable costs to the Recovery Act grant because its
method for allocating costs to Federal awards as described above did not comply with 2 CFR
part 230.

Costs Inadequately Documented

The Agency did not adequately document $34,143 in costs charged to the Recovery Act grant.
For $32,078 in nonsalary costs, the Agency did not provide purchase requisitions. For $2,065 in
salary costs, the Agency's documentation did not support amounts actually charged to the
Recovery Act grant.

Nonsalary Costs

The Agency charged $26,613 in equipment, supplies, and fuel costs, a few days before the grant
expired without purchase requisitions or other documentation to indicate the purpose or need for
the purchases. The charges included computers ($18,322), a copier ($3,630), a laminator
($3,138), four global positioning navigation systems, printers and printing supplies, and other
miscellaneous office supplies ($1,523). In response to inquiries regarding the need for these
items, the Agency stated, for example, that the computers were purchased due to a need for
enhanced capabilities. In this same time period, the Agency also charged $5,000 for the cost of
plaques. The Agency's director of business operations told us that the Agency had purchased
multiple plaques to recognize the Agency 's success in exceeding certain program goals related to
the Recovery Act. However, the vendor's invoice indicated that the Agency had purchased one
plaque for $5,000.




3
  We excluded these particular items from our calculations of the allocation percentages used in September 2009 and
in April and September 20 10.



                                                        5

The Agency also charged $465 for items that were for employees' personal use, including a
satellite radio subscription for a vehicle, automobile window tinting, a clock radio, a DVD
player, beverages, decorative plants, and dry cleaning services. The Agency provided no
documentary support that these costs were incurred specifically for the purposes of the Recovery
Act grant, benefitted the CSBG program, or were necessary for the overall operation ofthe
organization.

The Agency did not adequately document all costs charged to the grant because it did not follow
its own policies and procedures for providing purchase requisitions, receipts, and other necessary
supporting documentation for accounts payable transactions and travel-related expenditures.

Salary Costs

The Agency charged $2,065 4 in salary costs to the Recovery Act grant that were inadequately
documented. For 8 out of30 sample items, the Agency either overcharged or undercharged the
grant. Specifically:

      • 	 In five instances, the number of hours reported on the employees' timesheets was less
          than the number of hours associated with the salaries that were charged to the grant.

      • 	 In two instances, the number ofhours reported on the employees' timesheets exceeded
          the number of hours associated with the salaries that were charged to the grant.

      • 	 In one instance, Agency officials stated that they charged the Recovery Act grant in error.
          Instead, it should have charged the amount to its (non-Recovery Act) CSBG grant.

The table below provides details on the eight charges:

                                 Inadequately Documented Salary Charges


                                        Supported         Supported         Actual        Over
             Sample       Hourly          Grant             Grant           Grant        (Under)
               #         Pay Rate         Hours             Char~e          Char~e       Char~e
                  3        $47.69            12.75                $608         $1 ,526        $918
                  4         47.69            12.75                 609             382       (227)
                  7         46.15             11.5                 531             522          (9)
                 19         46.15            12.75                 588          1,154          565
                 20         14.42             11.4                 164             216           52
                 26         14.54             28.8                 419             843         425



4
    The $2,065 is the net amount of $2,301 in overcharges and $236 in undercharges.



                                                          6

                                          Supported         Supported  Actual      Over
             Sample        Hourly           Grant             Grant    Grant      (Under)
               #          Pay Rate          Hours            Char2e    Char2e     Char2e
                 27          14.54 	              8)              -        116          116
                 28          15.58                 14.4         224        449          224
                                                     Total Over(Under) Charged       $2,064

The unallowable salary costs occurred because the Agency did not follow its policies and
procedures in regard to documentation of salary costs. Payroll costs were to be based on
accurate, properly completed timesheets; however, employee timesheets were not always
accurate or submitted in time for payroll processing. When employees did not submit timesheets
in time for processing, the Agency charged payroll costs based on the employee's prior
time sheet.

Costs Incurred Outside the Recovery Act Budget Period

The Agency charged $3,937 in costs to the Recovery Act grant that were incurred outside the
budget period of July 1, 2009, through September 30, 2010. This amount included mortgage
payments for October 2010, a telephone lease agreement for October 2010 through June 2013,
and a training session in October 2010.

Although the Agency had some policies and procedures addressing limitations of grant periods
for incurring costs, its policies and procedures did not specifically address the requirement that
only purchases made within the grant budget period are allowable.

RECOMMENDATIONS

We recommend that the State:

       • 	 either return to the Federal government $122,324 or work with the Agency to determine
           what portion ofthe $122,324 was allocable to the Recovery Act grant,

       • 	 return to the Federal Government unallowable costs totaling $38,080,

       • 	 ensure that the Agency uses a method for allocating costs to Federal awards that is
           compliant with 2 CFR part 230, and

       • 	 ensure that the Agency revises and follows its policies and procedures regarding the
           adequate documentation of all costs charged under Federal awards and the charging of
           costs during a grant period.




5
    Agency officials stated that these hours were charged in error.

                                                             7

AGENCY COMMENTS

The Agency did not concur with all of our findings regarding allowability of costs. However, it
did concur that $4,867 was not allocable to the Recovery Act grant.

With regard to costs identified as potentially not allocable, the Agency said that it assigned an
allocation percentage based on square footage. The Agency said that its Board of Directors and
the State approved these allocations and that the allocations were documented in the grant files.

The Agency said that, when it received a new grant, when a grant ended, or when a grant was
modified, it calculated a new percentage to shift resources to accomplish the grants'
requirements and that these new percentages were also approved by its Board of Directors and
the State.

As for costs we identified as inadequately documented, the Agency stated that it had documented
liabilities with a voucher and signed invoice. For the $5,000 charged for plaques, the Agency
asserted that we had misconstrued its explanation and that the plaques would be purchased over a
period of time. It also said that items we identified as being for personal use had not been
purchased for employees' personal use but, instead, benefitted the CSBG program and were
necessary for the overall operation of the organization. The Agency also said that it did not
necessarily keep hotel receipts with voucher packages for individual travelers because it
consolidated documents to save paper and avoid excessive copying costs. In addition to its
written response, the Agency provided screen printouts from its accounting software to
                       6
document these costs.

Concerning costs incurred outside of the grant period, the Agency stated that it had recorded the
costs during the grant period, and, because it used a modified cash basis of accounting, it charged
the costs to its active grants even though services occurred after the close of the grant.

The complete text ofthe Agency's comments is included as Appendix A.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that the State claimed on behalf of the Agency $122,324 in costs that may not have
been allocable to the Recovery Act grant and $38,080 in unallowable costs.

Although the Agency stated that its recalculated allocation percentages were approved and
documented in the grant award documents, we did not find such documentation in either the
Agency-provided or State-provided documents. Furthermore, during onsite fieldwork, the
Agency told us that it did not document the changes to the percentages used to allocate the grant
costs. Thus, we remain unable to determine whether the $122,324 was allocable to the grant.



6
    This documentation was too voluminous to include in Appendix A

                                                        8

For $34,143 identified as unallowable costs, the Agency did not document the purpose or need
for the charges. The Agency's policies and procedures stated that each voucher package should
include, among other things, purchase requisitions; however, the Agency did not provide this
documentation for the charges we identified as unallowable. Similarly, the accounting software
screen printouts were also not adequate support as the documentation only showed the amount of
a charge split between the Agency's various grants.

Finally, by charging costs for services provided outside of the grant period, the Agency did not
adhere to the limitations contained in ACF's Information Memorandum Transmittal No. 109,
which states that, if using a cash accounting system, services related to the Recovery Act must be
provided on or before September 30, 2010. Thus, the $3,937 in costs paid during the grant for
services that continued after the grant ended was not allowable.

STATE COMMENTS

In response to our draft report, the State acknowledged that the Agency had charged some
unallowable costs but did not concur with the majority ofthe unallowable costs and potentially
unallowable costs we identified. The State concurred that the Agency made unallowable charges
to the Recovery Act grant of $4,867. However, the State explained that it had worked with the
Agency and obtained supporting documentation for all of the other costs that we identified as
unallowable and potentially unallowable. The State provided us with this documentation on
behalf of the Agency.

The State said that it had worked with the Agency on a cost allocation plan and methodology for
allocating direct and indirect costs during the CSBG Recovery Act grant period. According to
the State, the Agency charged direct costs when the costs were incurred for a specific grant
requirement and charged only the allocated portion of indirect costs that applied to the grant.

The State also said that the Agency's budget summary and work plan documents incorporated in
the grant award document justified the expenditures we identified as unallowable costs.

Finally, the State explained that it planned to visit the Agency to ensure that it improved its
policies and procedures for documenting costs charged to Federal awards and to ensure that the
Agency is compliant with 2 CFR part 230 in allocating costs to Federal awards.

The complete text ofthe State's comments is included as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing documentation that the State provided on behalf of the Agency, we partially
revised our findings. The State provided new documentation in the form of receipts that
supported $15,151 in costs we had initially identified as unallowable. However, because these
costs were allocated using similar methodology as other potentially unallocable costs we
identified, we added these items to potentially unallowable costs.



                                                9

For the remaining costs we had identified as unallowable or potentially unallowable, we maintain
that these items were either not necessarily allocable to the Recovery Act grant or not adequately
supported. Much of the documentation the State provided was the same documentation we
reviewed onsite at the Agency's offices, including vouchers, invoices, and screen prints of the
Agency's accounting software. The State also provided copies ofthe Agency 's cost allocation
plan and approved budget as included in the grant award documents, which we also had
previously reviewed.

From this documentation, we still could not determine whether costs the Agency allocated to the
Recovery Act grant were allocable. Furthermore, the Agency's support for certain cost items,
including equipment and other costs incurred near the end ofthe grant period, still failed to show
how the costs were necessary and thus, allowable, to the Recovery Act grant.




                                                10 

APPENDIXES 

                                  Page 1 of 13

  APPENDIX A: AGENCY COMMENTS 





CENTRAL F~ORIDA COMMUNITY 

 ACTION AGENCY (CFCAA), INC. 


  NARRATIVE RESPONSE TO 


  DEPART~IENT  OF HEALTH 

    AND HlJMAN SERVICES 


OFFICE OF INSPECTOR GENERAL 


REPORT NUMBER: A-04-11-01008 





                1

                                                                                                     Page 2 of 13




                                            SUMMARY OF FINDINGS

Of the $325,576 in CSBG costs that the State claimed on behalf of the Agency and that we reviewed, $165,173 was
allowable under the terms of the grant and applicable Federal regulations. However, the State claimed $107,098 in
costs (or 33 percent of reviewed expenditures) that may not have been allocable to the Recovery Act grant and thus
were potentially unallowable. The State also claimed $53,305 in unallowable costs (or 16 percent of reviewed
expenditures) on behalf of the Agency, including:

         • $49,294 in costs that were inadequately documented, and

         • $4,011 in costs that were incurred outside of the grant period.

The potentially unallowable costs the State claimed on behalf of the Agency occurred because the Agency's method
for allocating costs to Federal awards was not compliant with 2 CFR pt. 230 . The unallowable costs the State
claimed on behalf of the Agency occurred because the Agency did not follow its own policies and procedures for
providing purchase orders, receipts, and other necessary supporting documentation for accounts payable transactions
and travel related expenditures. Furthermore, the Agency's policies and procedures were inadequate to ensure that
the Agency charged to the grant only those costs properly incurred during the Recovery Act budget period.

Because the Agency charged unallowable costs to the Recovery Act grant, these funds could not be used to reduce
poverty, revitalize low income communities, and empower individuals to become fully self-sufficient.

RESPONSE: CFCAA does not concur; specific rebuttals are presented below.

RECOMMENDATIO NS

We recommend that the State:

• either return to the Federal government $107,098 or work with the Agency to determine what portion of the
$107,098 was allocable to the Recovery Act grant,

• return to the Federal Government unallowable costs totaling $53,305,

• ensure that the Agency uses a method for allocating costs to Federal awards that is compliant with 2 CFR pt. 230,
and

• ensure that the Agency revises and follows its policies and procedures regarding the adequate documentation of all
costs charged under Federal awards and the charging of costs during a grant period.

RESPONSE: CFCAA does not concur; specific rebuttals are presented below.

                                    F INDINGS AND RECOMMENDATIO NS

FINDING: Of the $325,576 in CSBG costs that the State claimed on behalf of the Agency and that we reviewed,
$165,173 was allowable under the terms of the grant and applicable Federal regulations. However, the State
claimed $107,098 in costs (or 33 percent of reviewed expenditures) that may not have been allocable to the
Recovery Act grant and thus were potentially unallowable.

RESPONSE: CFCAA does not concur with this finding . In the DHHS/OIG/OAS Excel spreadsheet "CFCAA­
Questioned Costs Detail.xlsx, Potentially Unallowable" tab, provided to CFCAA for responses and as a vehicle for
providing supporting rationale and documentation for the costs inclusion in the CSBG/ARRA grant expenditures, a
line item by line item documented explanation was provided. The spreadsheet construction leads to the conclusion
that the reason for the costs being questioned was that there was insufficient documentation as to the costs
allowability; specifically, that allocation percentages were not documented. CFCAA provided the allowability
criterion from OMB Circular A-122 and an allowability rationale demonstrating the cost items satisfied the criterion.

                                                           2

                                                                                                        Page 3 of 13




Furthermore, CFCAA provided allocability criterion (see I. below), allocability rationale, additional rationale, and
documentation methodology (see 2. below). CFCAA provided the following refutation for each of the itemized
questioned costs from the DHHS/OIG/OAS Excel spreadsheet "CFCAA-Questioned Costs Detail.xlsx, Potentially
Unallowable" tab by extending the spreadsheet several columns to accommodate the provided information:

         I. OMB Circular A-122. Attachment A. 4. Allocable c~. States in part that: (1) "A cost is allocable to a
         Federal award if it is treated consistently with other costs incurred for the same purpose in like
         circumstances and if it: ...(2) Benefits both the award and other work and can be distributed in reasonable
         proportion to the benefits received, or (3) Is necessary to the overall operation of the organization, although
         a direct relationship to any particular cost objective cannot be shown...." CFCAA uses as a basis for
         allocation of costs square footage (see attached policy and procedure). The percentage allocation assigned
         to a given square foot is provided in the Board of Directors' approved grants and grant modifications
         (which are on file with the Department of Economic Opportunity), which are subsequently approved by the
         funding/pass-through agency. As new grants are received and it is necessary to shift or add or delete
         resources to accomplish the grants' requirements, a new percentage is calculated and approved by the Board
         of Directors and the funding/pass-through agency in the new grant or grant modification.

         2. To each check, a voucher and signed invoice were attached documenting the liability. Allocations were
         made as described in Note 1 above and the attached policy and procedure. The grants that were active at
         the time of the allocation were allocated costs. The percentages in effect at the time of allocation are
         documented in the grant and grant modification on file at the Department of Economic Opportunity (Board
         and pass-through agency approved grants and modifications).

Apparently, including the contractuaVgrant documents submitted and approved between CFCAA and the State of
Florida, the rates used were not considered sufficient documentation.

Since CFCAA was informed that the arbitrary and capricious reasoning for not amending the fmdings was that the
"initial findings" had been through an "internal quality control and legal review" and therefore could not be changed
(see the quoted, italics provided, DHHS/OIG/OAS email sent August 3, 2012, below):

Thank you for providing the additional infonnation related to our tentative findings. I wanted to make you aware
that our report had already been through our internal quality control and legal review and we were unable to make
any changes based on the additional infonnation provided. Thus, the tentative findings I provided will be included
in the issued draft report to CFCAA. We are still considering the additional infonnation provided, but your
response to our draft should include any necessary explanations or disagreements over statements offact. Your
response will then be incorporated in our 2nd draft report to be issued to the FL (Florida) Department ofEconomic
Opportunity.

Furthermore, since the cited email indicated that the response to this draft report should include "any necessary
explanations or disagreements," the expanded spreadsheet is being made a part of the response and is attached.
Based on previous audits ofCAA's in Florida during CSBG/ARRA examinations in which DHHS/OIG/OAS has, to
the best of our knowledge, "stood by their audits" despite input from the audited agencies, we are hopeful that the
comprehensive data we are providing in this response will encourage DHHS/OIG/OAS to reconsider their findings.

FINDING: The State also claimed $53,305 in unallowable costs (or 16 percent of reviewed expenditures) on behalf
of the Agency, including:

         • $49,294 in costs that were inadequately documented, and

         • $4,011 in costs that were incurred outside of the grant period.

RESPONSE: The "initial fmdings" presented to CFCAA indicated that the "inadequately documented" amount as
$49,299, not $49,294. As detailed in the spreadsheet response (which is again submitted with this response),
CFCAA concurred that of the $49,299 indicated amount, an amount of$4,867.23 was allocated erroneously as the


                                                           3

                                                                                                         Page 4 of 13




incorrect percentages were applied. As to the remaining $44,431.77 of the $49,299, CFCAA does not concur. As
stated in the response to the "initial fmdings," in allocating costs, CFCAA considers all active grants current at the
time of the allocation; this is part of the modified cash basis of accounting used by CFCAA. The reason given for
the costs being unallowable was that inadequate documentation existed, specifically the percentages used to allocate
the cost. The "fmdings" here, and as detailed in the "Unallowable - Non-salary'' and "Unallowable Salary" tabs of
the "CFCAA-Questioned Costs Detail.xlsx" spreadsheet, are subject to the same responses as above, namely:

         1. OMB Circular A-122, Attachment A. 4. Allocable costs: States in part that: (1) "A cost is allocable to a
         Federal award if it is treated consistently with other costs incurred for the same purpose in like
         circumstances and if it: ... (2) Benefits both the award and other work and can be distributed in reasonable
         proportion to the benefits received, or (3) Is necessary to the overall operation of the organization, although
         a direct relationship to any particular cost objective cannot be shown. ..." CFCAA uses as a basis for
         allocation of costs square footage (see attached policy and procedure). The percentage allocation assigned
         to a given square foot is provided in the Board of Directors' approved grants and grant modifications
         (which are on file with the Department of Economic Opportunity), which are subsequently approved by the
         funding/pass-through agency. As new grants are received and it is necessary to shift or add or delete
         resources to accomplish the grants' requirements, a new percentage is calculated and approved by the Board
         of Directors and the funding/pass-through agency in the new grant or grant modification.

         2. To each check, a voucher and signed invoice were attached documenting the liability. Allocations were
         made as described in Note I above and the attached policy and procedure. The grants that were active at
         the time of the allocation were allocated costs. The percentages in effect at the time of allocation are
         documented in the grant and grant modification on file at the Department of Economic Opportunity (Board
         and pass-through agency approved grants and modifications).

Apparently, including the contractual/grant documents submitted and approved between CFCAA and the State of
Florida, the rates used were not considered sufficient documentation.

As to the $4,011 of charges being outside the period of performance, CFCAA does not concur. As shown in the
attached "CFCAA-Questioned Costs Detail.xlsx," the charges were recorded between the September 19,2009, start
date for CFCAA's grant and the September 30, 2010, ending date ofCFCAA's grant. As stated in the response to
the "initial fmdings," in allocating costs, CFCAA considers all active grants current at the time of the allocation; this
is part of the modified cash basis of accounting used by CFCAA. To do otherwise would be to skew the allocations
in favor of some grants to the detriment of other grants, dependent only on how close to the end of a grant period the
actual payment was made--for example, the costs of audits. As it was the ARRA grants that caused expanded
auditing requirements to occur due to all recipients being arbitrarily classified as "At Risk," organizations. Yet, the
audit did not occur until after the grant was closed. The audit is not, and cannot, be paid until the work has been
accomplished.

To support the audit, CAA personnel must gather data, provide information to the auditors, and respond to the report
and findings; all of which occur after the CSBG grants have closed. Thus, the cost of the audit cannot be charged to
the grant that caused the cost to be incurred. In the case of the CSBG/ARRA audit, additional costs for the audit
were incurred due to the "At Risk" status, yet the cost, not to mention the additional employee-related costs, were
not charged to the grant causing the additional work. As standard practice, audit costs from the previous audits are
charged to the then open grants when the payment is made.

The only other approach, and apparently the one being put forth here is to levy a requirement, the cost of satisfying
which, is to be borne by the CAA. This practice would amount to an unfunded mandate and would cause serious
fmancial consequences for CFCAA and most probably all other CAA's in the country (see OMB Circular A-122
Attachment A, 4.(3)), which was presented in the response to the "initial findings" and is presented above in Note 1.
The same rationale can be applied to the DHHS/OIG/OAS review; it came after the CSBG/ARRA grant was closed.
It caused excessive amounts of energy and time to be expended by CFCAA personnel, and the cost will be borne by


                                                           4

                                                                                                         Page 5 of 13




the grants open during the time of the review and responses. The rationale being put forth by DHHS can only be
interpreted as forcing an unfunded mandate on CFCAA and other CAA's. On the other hand, the most equitable
practice available is the one used by CFCAA; the grants open at the time that benefit from the expenditure, either as
a direct beneficiary or as a beneficiary of the continued existence ofthe CAA, are charged with costs when paid.

FINDING: The potentially unallowable costs the State claimed on behalf of the Agency occurred because the
Agency's method for allocating costs to Federal awards was not compliant with the applicable cost principles at 2
CFRpt. 230.

RESPONSE: CFCAA does not concur; CFCAA complies with OMB Circular A-122. This finding is so broad and
non-specific that a more detailed response is not possible.

FINDING: The unallowable costs the State claimed on behalf of the Agency occurred because the Agency did not
follow its own policies and procedures for providing purchase orders, receipts, and other necessary supporting
documentation for accounts payable transactions and travel-related expenditures. Furthermore, the Agency's
policies and procedures were inadequate to ensure that the Agency charged to the grant only those costs properly
incurred during the Recovery Act budget period.

RESPONSE: CFCAA does not concur; CFCAA policies and procedures meet the requirements of OMB Circular
A-122 and were followed. The allocation documentation for the accounts payable transactions and the travel-related
expenditures were contained in the grants and modifications as described in the CFCAA response to the "initial
findings," to wit:

         1. OMB Circular A-122. Attachment A. 4. Allocable costs. States in part that: (1) "A cost is allocable to a
         Federal award if it is treated consistently with other costs incurred for the same purpose in like
         circumstances and if it: . .. (2) Benefits both the award and other work and can be distributed in reasonable
         proportion to the benefits received, or (3) Is necessary to the overall operation of the organization, although
         a direct relationship to any particular cost objective cannot be shown...." CFCAA uses as a basis for
         allocation of costs square footage (see attached policy and procedure). The percentage allocation assigned
         to a given square foot is provided in the Board of Directors' approved grants and grant modifications
         (which are on file with the Department of Economic Opportunity), which are subsequently approved by the
         funding/pass-through agency. As new grants are received and it is necessary to shift or add or delete
         resources to accomplish the grants' requirements, a new percentage is calculated and approved by the Board
         of Directors and the funding/pass-through agency in the new grant or grant modification.

         2. To each check, a voucher and signed invoice were attached documenting the liability. Allocations were
         made as described in Note 1 above and the attached policy and procedure. The grants that were active at
         the time of the allocation, were allocated costs. The percentages in effect at the time of allocation are
         documented in the grant and grant modification on file at the Department of Economic Opportunity (Board
         and pass-through agency approved grants and modifications).

Furthermore, the costs incurred were charged to open grants benefitting from the charge. As shown in the attached
"CFCAA-Questioned Costs Detail.xlsx," the charges were recorded between the September 19,2009, start date for
CFCAA's grant and September 30,2010, ending date ofCFCAA's grant. As stated in the response to the "initial
findings," in allocating costs, CFCAA considers all active grants current at the time of the allocation; this is part of
the modified cash basis of accounting used by CFCAA.

To do otherwise would be to skew the allocations in favor of some grants to the detriment of other grants, dependent
only on how close to the end of a grant period the actual payment was made--for example, the costs of audits. As it
is the ARRA grants caused additional auditing to occur due to all recipients being arbitrarily classified as "At Risk,"
yet the audit does not occur until after the grant has closed. The audit is not, and cannot, be paid until the work has
been accomplished. To support the audit, CAA personnel must gather data, provide information to the auditors, and


                                                              5
                                                                                                        Page 6 of 13




respond to the report and fmdings; all of which occur after the CSBG grants have closed. Thus, the cost of the audit
caiUlot be charged to the grant that caused the cost to be incurred. In the case of the CSBG audit, additional costs for
the audit were incurred due to the "At Risk" status, yet the cost, not to mention the additional cost, were not charged
to the grant causing the problem. As standard practice, audit costs from the previous audits are charged to the then
open grants when the payment is made.

The only other approach, and apparently the one being put forth here is to levy a requirement, the cost of satisfying
which, is to be borne by the CAA. This practice would amount to an unfunded mandate and would cause serious
financial consequences for CFCAA and most probably all other CAA's in the country (see OMB Circular A-122
Attachment A, 4.(3)), which was presented in in response to the "initial findings" and is presented above in Note 1.
The same rationale can be applied to the DHHS/OIG/OAS review; it came after the CSBG ARRA grant was closed,
it caused excessive amounts of energy and time to be expended by CFCAA persoiUlel, and the cost will be borne by
the grants open during the time of the review and responses. The rationale being put forth by DHHS can only be
interpreted as forcing an unfunded mandate on CFCAA and other CAA's. On the other hand, the most equitable
practice available is the one used by CFCAA; the grants open at the time that benefit from the expenditure, either as
a direct beneficiary or as a beneficiary of the continued existence of the CAA, are charged with costs when paid.

Furthermore, the CFCAA policies and procedures reference purchase requisitions, not purchase orders. This is an
important distinction in this particular matter.

FINDING: Because the Agency charged unallowable costs to the Recovery Act grant, these funds could not be
used to reduce poverty, revitalize low income communities, and empower individuals to become fully self­
sufficient.

RESPONSE: The costs incurred were allowable and allocable. Therefore, the "funds were used to reduce poverty,
revitalize low income communities, and empower individuals to become fully self-sufficient," and the funds also
contributed to creating and/or retaining jobs, a primary goal of CSBG/ARRA.

FINDING: UNALLOWABLE COSTS

Federal Requirements and State Guidance
Section 678D(a)(l)(B) of the CSBG Act requires that States that receive CSBG funds ensure that cost and
accounting standards of the OMB apply to a recipient of the funds under this subtitle. As a result, ACF determined
that non-profit Community Action Agencies are subject to 45 CFR pt. 74. Federal regulations (45 CFR § 74.27(a))
state that the allowability of costs for nonprofit organizations will be determined in accordance with 2 CFR pt. 230
(formerly OMB Circular A-122), Cost Principles for Non-Profit Organizations.

RESPONSE: CFCAA does not concur with the fmding that 2 CFR pt. 230 was formerly OMB Circular A-122.
OMB Circular A-122 is very much in force; it is THE determining document for costs on federal grants made by
nonprofit organizations such as CFCAA. Statutorily, 2 CFR pt. 230 can only be a codification of OMB Circular
A-122. Deviations from OMB Circular A-122 that may exist must have been approved by the Office of
Management and Budget. Furthermore, OMB Circular A-122 is cited in all federal grants awarded to CFCAA.
OMB Circular A-122 governs; therefore, all responses have cited OMB Circular A-122.

FINDING: Pursuant to 2 CFR pt. 230, App. A,§§ A.2.a. and A.2.g., to be allowable under a Federal award, costs
must be reasonable, allocable, and adequately documented.

RESPONSE: CFCAA does not concur with the fmding that 2 CFR pt. 230 was formecly OMB Circular A-122.
OMB Circular A-122 is very much in force; it is THE determining document for costs on federal grants made by
nonprofit organizations such as CFCAA. Statutorily, 2 CFR pt. 230 can only be a codification of OMB Circular
A-122. Deviations from OMB Circular A-122 that may exist must have been approved by the Office of
Management and Budget. Furthermore, OMB Circular A-122 is cited in all federal grants awarded to CFCAA.
OMB Circular A-122 governs; therefore, all responses have cited OMB Circular A-122. It is noted that OMB
Circular A-122levies the same requirements for cost to be "reasonable, allocable, and adequately documented."

                                                           6

                                                                                                        Page 7 of 13




CFCAA emphatically contends that the costs charged to CSBG/ARRA were reasonable, allocable (except for the
$4,867.23 discussed above), and documented, to wit:

         1. OMB Ci.J:cular A-122, Attachment A. 4. Allocable costs. States in part that: (1) "A cost is allocable to a
         Federal award if it is treated consistently with other costs incurred for the same purpose in like
         circumstances and if it: ... (2) Benefits both the award and other work and can be distributed in reasonable
         proportion to the benefits received, or (3) Is necessary to the overall operation of the organization, although
         a direct relationship to any particular cost objective cannot be shown...." CFCAA uses as a basis for
         allocation of costs square footage (see attached policy and procedure). The percentage allocation assigned
         to a given square foot is provided in the Board of Directors' approved grants and grant modifications
         (which are on file with the Department of Economic Opportunity), which are subsequently approved by the
         funding/pass-through agency. As new grants are received and it is necessary to shift or add or delete
         resources to accomplish the grants' requirements, a new percentage is calculated and approved by the Board
         of Directors and the funding/pass-through agency in the new grant or grant modification.

         2. To each check, a voucher and signed invoice were attached documenting the liability. Allocations were
         made as described in Note I above and the attached policy and procedure. The grants that were active at
         the time of the allocation were allocated costs. The percentages in effect at the time of allocation are
         documented in the grant and grant modification on file at the Department of Economic Opportunity (Board
         and pass-through agency approved grants and modifications).

FINDING: A cost that benefits both a Federal award and other work is allocable to a Federal award if the cost can
be distributed in reasonable proportion to the benefits received. Any cost allocable to a particular award or other
cost objective may not be shifted to other Federal awards to overcome funding deficiencies, or to avoid restrictions
imposed by law or by terms of the award (2 CFR pt. 230, App. A, § A.4).

RESPONSE: CFCAA does not concur with the fmding that 2 CFR pt. 230 was formerly OMB Circular A-122.
OMB Circular A-122 is very much in force; it is THE determining document for costs on federal grants made by
nonprofit organizations such as CFCAA. Statutorily, 2 CFR pt. 230 can only be a codification of OMB Circular
A-122. Deviations from OMB Circular A-122 that may exist must have been approved by the Office of
Management and Budget. Furthermore, OMB Circular A-122 is cited in all federal grants awarded to CFCAA.
OMB Circular A-122 governs; therefore, all responses have cited OMB Circular A-122. OMB Circular A-122
levies the same requirements as cited in this finding. CFCAA emphatically contends that costs charged to CSBG/
ARRA were allocable (except for the $4,867.23 discussed above) and costs were not "shifted to other Federal
awards to overcome funding deficiencies."

FINDING: Pursuant to 2 CFR pt. 230, App. B, § 8.m.(l), salary and wage costs should be based on documented
payrolls and the distribution to awards must be supported by personnel activity reports.

RESPONSE: CFCAA does not concur with the fmding that 2 CFR pt. 230 was formerly OMB Circular A-122.
OMB Circular A-122 is very much in force; it is THE determining document for costs on federal grants made by
nonprofit organizations such as CFCAA. Statutorily, 2 CFR pt. 230 can only be a codification of OMB Circular
A-122. Deviations from OMB Circular A-122 that may exist must have been approved by the Office of
Management and Budget. Furthermore, OMB Circular A-122 is cited in all federal grants awarded to CFCAA.
OMB Circular A-122 governs; therefore, all responses have cited OMB Circular A-122. OMB Circular A-122
levies the same requirements as cited in this finding. CFCAA payrolls are documented and distributions are
supported by "personnel activity reports" (except for $1,369.93 of the $4,867.23 that relate to payroll).

FINDING: Pursuant to 45 CFR § 74.2l(b)(6), recipients of Federal funds must develop written procedures for
determining the reasonableness, allocability, and allowability of costs in accordance with the provisions of the
applicable Federal cost principles and the terms and conditions of the award.

RESPONSE: 45 CFR § 74 is a DHHS codification ofOMB Circular A-110, Appendix A. As with 2 CFR pt. 230,
deviations from OMB Circular A-110 must have been approved by the Office ofManagement and Budget. OMB
Circular A-110 is cited in CFCAA Federal grants and therefore controls. CFCAA has such a procedure which is


                                                           7
                                                                                                        Page 8 of 13



 presented in the format used by the applicable OMB Circular. The procedure was included in the response to the
 "initial findings," which are included as part of the "CFCAA-Questioned Costs Detail.xlsx" attached hereto.

FINDING: In its Guidance on Cost Allocation Planning, the State stipulated that grant dollars received could not
be used as a basis for allocating costs.

RESPONSE: CFCAA expresses no opinion about what the State stipulated. However, CFCAA does not use the
"grant dollars received ... as a basis for allocating costs." CFCAA looks to the tasks required by the grant, the
amount of effort by which staff members to be expended in accomplishing the required tasks, and any funds that
may need to be expended outside ofCFCAA to accomplish the tasks of the grants as well as the grants' share of
general costs of the organization as allowed in OMB Circular A-122, as explained in the note provided in the
response to the "initial findings," as part of the "CFCAA-Questioned Costs Detail.xlsx," and in subparagraph (3)
below.

          1. OMB Circular A-122 . Attachment A 4. Allocable costs. States in part that: "A cost is allocable to a
         Federal award if it is treated consistently with other costs incurred for the same purpose in like
         circumstances and if it: ... (2) Benefits both the award and other work and can be distributed in reasonable
         proportion to the benefits received, or (3) Is necessary to the overall operation of the organization, although
         a direct relationship to any particular cost objective cannot be shown...." CFCAA uses as a basis for
         allocation of costs square footage (see attached policy and procedure). The percentage allocation assigned
         to a given square foot is provided in the Board of Directors' approved grants and grant modifications
         (which are on file with the Department of Economic Opportunity), which are subsequently approved by the
         funding/pass-through agency. As new grants are received and it is necessary to shift or add or delete
         resources to accomplish the grants' requirements, a new percentage is calculated and approved by the Board
         of Directors and the funding/pass-through agency in the new grant or grant modification.

         2. To each check, a voucher and signed invoice were attached documenting the liability. Allocations were
         made as described in Note 1 above and the attached policy and procedure. The grants that were active at
         the time of the allocation were allocated costs. The percentages in effect at the time of allocation are
         documented in the grant and grant modification on file at the Department of Economic Opportunity (Board
         and pass-through agency approved grants and modifications).

FINDING: Costs Potentially Not Allocable

The Agency allocated $107,098 in certain costs benefitting multiple projects to the Recovery Act grant that may not
have been allocable to that award. In reviewing individual transactions, we found that the Agency had allocated
varying percentages of costs to the Recovery Act grant. For example, for transactions we reviewed that occurred
during the month of September 2009, the Agency charged anywhere from 27 percent to 42 percent of these costs to
the Recovery Act grant. In April2010, the Agency charged anywhere from 18 to 36 percent of these costs to the
grant. In September 2010, the Agency charged anywhere from 20 to 50 percent of these costs to the grant. In some
cases, the Agency charged the entire amount of such costs as direct costs to the Recovery Act grant? According to
the Agency, each time it received a new award, it recalculated the percentage of costs allocated to the Recovery Act
grant based on the proportion of its available funds. However, the Agency did not retain documentation tracking the
changes it made to the allocation percentages. Without supporting documentation, we could not determine whether
the costs were allocated to the Recovery Act grant in reasonable proportion to the benefits received. Therefore, we
could not determine whether the $107,098 that the Agency charged to the Recovery Act grant was allowable.

The Agency charged these potentially unallowable costs to the Recovery Act grant because its method for allocating
costs to Federal awards as described above did not comply with 2 CFR pt. 230.

RESPONSE: CFCAA does not concur with this finding. In addition, CFCAA does not concur with the finding that
2 CFR pt. 230 was formerly OMB Circular A-122. OMB Circular A-122 is very much in force; it is THE
determining document for costs on federal grants made by nonprofit organizations, such as CFCAA. Statutorily, 2
CFR pt. 230 can only be a codification ofOMB Circular A-122. Deviations from OMB Circular A-122 that may
exist must have been approved by the Office of Management and Budget. Furthermore, OMB Circular A-122 is


                                                          8

                                                                                                        Page 9 of 13




cited in all federal grants awarded to CFCAA. OMB Circular A-122 governs; therefore, all responses have cited
OMB Circular A-122. Furthermore, as provided in the response to the "initial findings," the allocation rates are
documented in the grant and grant modifications:

         l. OMB Circular A-122. Attachment A. 4. Allocable costs. States in part that: (1) "A cost is allocable to a
         Federal award if it is treated consistently with other costs incurred for the same purpose in like
         circumstances and if it: .. .(2) Benefits both the award and other work and can be distributed in reasonable
         proportion to the benefits received, or (3) Is necessary to the overall operation of the organization, although
         a direct relationship to any particular cost objective cannot be shown...." CFCAA uses as a basis for
         allocation of costs square footage (see attached policy and procedure). The percentage allocation assigned
         to a given square foot is provided in the Board of Directors' approved grants and grant modifications
         (which are on file with the Department of Economic Opportunity), which are subsequently approved by the
         funding/pass-through agency. As new grants are received and it is necessary to shift or add or delete
         resources to accomplish the grants' requirements, a new percentage is calculated and approved by the Board
         of Directors and the funding/pass-through agency in the new grant or grant modification.

         2. To each check, a voucher and signed invoice were attached documenting the liability. Allocations were
         made as described in Note I above and the attached policy and procedure. The grants that were active at
         the time of the allocation were allocated costs. The percentages in effect at the time of allocation are
         documented in the grant and grant modification on ftle at the Department of Economic Opportunity (Board
         and pass-through agency approved grants and modifications).

As previously explained herein, and in the response to the "initial findings," CFCAA re-evaluates the allocation of
resources required to accomplish the tasks of multiple grants and grant modification whenever a new grant is
received, an old grant is ended, or modifications to the then existing grants are received. The re-evaluation leads to
changes in the appropriate percentages to be applied to each grant. Hence, the changes in the percentages to the
various grants reflect the amount of work being required by the various grants and the allocation of resources
required to satisfy the grants' requirements. To do otherwise would mean that allowable and allocable costs would
not be distributed in an equitable fashion and instead CFCAA would have to "eat" these costs which would cause
serious financial damage to CFCAA.

FINDING: Costs Inadequately Documented

The Agency did not adequately document $49,294 in costs charged to the Recovery Act grant. For $47,229 in
nonsalary costs, the Agency did not provide purchase orders or receipts. For $2,065 in salary costs, the Agency's
documentation did not support amounts actually charged to the Recovery Act grant.

Nonsalary Costs

The Agency charged $26,613 in equipment, supplies, and fuel costs, a few days before the grant expired without
purchase orders or other documentation to indicate the purpose or need for the purchases. The charges included
computers ($18,322), a copier ($3,630), a laminator ($3, 138), four global positioning navigation systems, printers
and printing supplies, and other miscellaneous office supplies ($1,523). In response to inquiries regarding the need
for these items, the Agency stated, for example, that the computers were purchased due to a need for enhanced
capabilities. In this same time period, the Agency also charged $5,000 for the cost of plaques. The Agency's
director of business operations told us that the Agency had purchased multiple plaques to recognize the Agency's
success in exceeding certain program goals related to the Recovery Act. However, the vendor's invoice indicated
that the Agency had purchased one plaque for $5,000. NOTE: Statement was misconstrued by auditor(s). Intent
ofcomment by director ofbusiness operations was that plaques would he purchased over a period oftime.

In addition, the Agency did not provide receipts for $15,151 in costs including lodging, membership dues, supplies,
training, facilities rental, fuel, postage, vehicle repair, and meals. For example, the Agency charged $3,051 in hotel
                                                                                4
lodging costs; however, the Agency did not provide receipts for the charges.



                                                           9
                                                                                                     Page 10 of 13



The Agency also charged $465 for items that were for employees' personal use, including a satellite radio
subscription for a vehicle, automobile window tinting, a clock radio, a DVD player, beverages, decorative plants,
and dry cleaning services. The Agency provided no documentary support that these costs were incurred specifically
for the purposes of the Recovery Act grant, benefitted the CSBG program, or were necessary for the overall
operation of the organization. NOTE: No items were purchasedfor employees' personal use. The lifetime
satellite radio subscription was for an agency vehicle. Automobile window tinting was installed in agency
vehicles which is a common practice and especially in warm weather climates. The dry cleaning expense was
incurred to clean carpets in our offices. "Non-alcoholic" beverages were purchased in conjunction with board
meetings and training events. Decorative plants were purchased for the agency's lobby area. A DVD player is
ancillary equipmentfor our television to be used at board meetings and at training events. In accordance with
OMB Circular A-122 guidelines, these "shared" costs "benefitted the CSBG program and were necessary for the
overall operation ofthe organization." We could not locate documentation relative to the clock radio.

The Agency did not adequately document all costs charged to the grant because it did not follow its own policies
and procedures for providing purchase orders, receipts, and other necessary supporting documentation for accounts
payable transactions and travel-related expenditures.

Salary Costs

The Agency charged $2,065 in salary costs to the Recovery Act grant that were inadequately documented. For 8 out
of 30 sample items, the Agency either overcharged or undercharged the grant. Specifically:

• In five instances, the number of hours reported on the employees' timesheets was less than the number ofhours
associated with the salaries that were charged to the grant.

• In two instances, the number of hours reported on the employees' timesheets exceeded the number of hours
associated with the salaries that were charged to the grant.

• In one instance, Agency officials stated that they charged the Recovery Act grant in error. Instead, it should have
charged the amount to its (non-Recovery Act) CSBG grant.

The table below provides details on the eight charges:

Inadequately Documented Salary Charges

Sample#             Hourly Pay Rate     Supported Grant Supported Grant          Actual Grant        Over (Under)
                                        Hours              Charge                Charge              Charge
3                   47.69               12.75              608                   1526                918
4                   47 .69              12.75              609                   382                 (227)
7                   46.15               11.5               531                   522                 (9)
19                  46.15               12.75              588                   1154                565
20                  14.42               11.4               164                   216                 52
26                  14.54               28.8               419                   843                 425
27                  14.54               8                  0                     116                 116
28                  15.58               14.4               224                   449                 224
                                        Total Over (Under) Charge                                    2064


The unallowable salary costs occurred because the Agency did not follow its policies and procedures in regard to
documentation of salary costs. Payroll costs were to be based on accurate, properly completed timesheets; however,
employee timesheets were not always accurate or submitted in time for payroll processing. When employees did not
submit timesheets in time for processing, the Agency charged payroll costs based on the employee's prior timesheet.




                                                         10 

                                                                                                      Page 11 of 13



RESPONSE: As explained in the previous responses to the iterations of the fmdings, CFCAA does not concur
except for the total amount of $4,867.23, the split between "Nonsalary" and "Salary" according to previous
responses hereinabove. CFCAA provides the documentation for the allocation of costs, to wit:

          1. OMB Circular A-122. Attachment A. 4. Allocable costs. States in part that: (1) "A cost is allocable to
         a Federal award if it is treated consistently with other costs incurred for the same purpose in like
         circumstances and if it: . .. (2) Benefits both the award and other work and can be distributed in reasonable
         proportion to the benefits received, or (3) Is necessary to the overall operation of the organization, although
         a direct relationship to any particular cost objective cannot be shown. ..." CFCAA uses as a basis for
         allocation of costs square footage (see attached policy and procedure). The percentage allocation assigned
         to a given square foot is provided in the Board of Directors' approved grants and grant modifications
         (which are on file with the Department of Economic Opportunity), which are subsequently approved by the
         funding/pass-through agency. As new grants are received and it is necessary to shift or add or delete
         resources to accomplish the grants' requirements, a new percentage is calculated and approved by the Board
         of Directors and the funding/pass-through agency in the new grant or grant modification.

         2. To each check, a voucher and signed invoice were attached documenting the liability. Allocations were
         made as described in Note 1 above and the attached policy and procedure. The grants that were active at
         the time of the allocation were allocated costs. The percentages in effect at the time of allocation are
         documented in the grant and grant modification on file at the Department of Economic Opportunity (Board
         and pass-through agency approved grants and modifications).

CFCAA consolidates the documents rather than "kill an excessive number of trees" to attach every possible piece of
documentation to each payment and generate excessive copying costs. For example, as explained numerous times
herein, the allocation percentages are documented in the grants and grant modifications. Copies of the grants and
grant modifications affected by each payment are not included in a given voucher package. Such costs as lodging
are usually paid with a credit card, as hotels expect a credit card rather than purchase orders, and the payment to the
credit card company will include a copy of the hotel invoice; a separate copy of the hotel invoice will not necessarily
be put in each voucher package for an individual traveler. If CFCAA had been asked at the time for a breakout for a
given voucher package of the allocation made for it, a screen-print of the finance software audit trail could have
been provided. The screen-prints are attached hereto.

As for the timing of such items as the above cited computer needed for enhanced capabilities, as stated in the
response to the "initial findings," in allocating costs, CFCAA considers all active grants current at the time of the
allocation; this is part of the modified cash basis of accounting used by CFCAA. To do otherwise would be to skew
the allocations in favor of some grants to the detriment of other grants, dependent only on how close to the end of a
grant period the actual payment was made.

In the "CFCAA- Questioned Costs Detail.xlsx," the specific items described above included in this fmding, all
indications of insufficient documentation centered on the percentages applied, not entire receipts missing. The fact
that the spreadsheet credited CSBG/ ARRA with some of the costs of these items reinforced the understanding that
the concern witlt documentation related to the percentages used for allocating the costs. The response to the "initial
findings" (see the attached "CFCAA- Questioned Costs Detail.xlsx"), provided information premised on the
allocation hypothesis.

FINDING: Costs Incurred Outside the Recovery Act Budget Period

The Agency charged $4,011 in costs to the Recovery Act grant that were incurred outside the budget period of July
1, 2009, through September 30, 2010. This amount included mortgage payments for October 2010, a telephone lease
agreement for October 2010 through June 2013, a training session in October 2010, and retroactive payments for an
Information Technology contract from October 2007 through June 2009. Although the Agency had some policies
and procedures addressing limitations of grant periods for incurring costs, its policies and procedures did not
specifically address the requirement that only purchases made within the grant budget period are allowable.

                                                          11
                                                                                                         Page 12 of 13




RESPONSE: As to the $4,0 II charges being outside the period of performance, CFCAA does not concur. As
shown in the attached "CFCAA-Questioned Costs Detail.xlsx," the charges were recorded between the September
 19, 2009, start date for CFCAA's grant and the September 30, 2010, ending date ofCFCAA's grant. As stated in
the response to the "initial findings," in allocating costs, CFCAA considers all active grants current at the time of the
allocation; this is part of the modified cash basis of accounting used by CFCAA. To do otherwise would be to skew
the allocations in favor of some grants to the detriment of other grants, dependent only on how close to the end of a
grant period the actual payment was made--for example, the costs of audits. The ARRA grants caused additional
auditing to occur due to all recipients being arbitrarily classified as "At Risk," yet the audit does not occur until after
the grant has closed. The audit is not, and cannot, be paid until the work has been accomplished.

To support the audit, CAA personnel must gather data, provide information to the auditors, and respond to the report
and findings; all of which occur after the CSBG grants have closed. Thus the cost of the audit cannot be charged to
the grant that caused the cost to be incurred. In the case of the CSBG audit, additional costs for the audit were
incurred due to the "At Risk'' status, yet the cost, not to mention the additional cost, were not charged to the grant
causing the problem. As standard practice, audit costs from the previous audits are charged to the then open grants
when the payment is made.

The only other approach, and apparently the one being put forth here is to levy a requirement, the cost of satisfying
which, is to be borne by the CAA. This practice would amount to an unfunded mandate and would cause serious
financial consequences for CFCAA and most probably all other CAA's in the country (see OMB Circular A-122
Attachment A, 4.(3)), which was presented in in response to the "initial findings" and is presented above in Note I.
The same rationale can be applied to the DHHS/OIG/OAS review; it came after the CSBG/ARRA grant was closed.
It caused excessive amounts of energy and time to be expended by CFCAA personnel, and the cost will be borne by
the grants open during the time of the review and responses. The rationale being put forth by DHHS can only be
interpreted as forcing an unfunded mandate on CFCAA and other CAA's. On the other hand, the most equitable
practice available is the one used by CFCAA; the grants open at the time that benefit from the expenditure, either as
a direct beneficiary or as a beneficiary of the continued existence of the CAA, are charged with costs when paid.

RECOMMENDATIONS

We recommend that the State:

• either return to the Federal government $107,098 or work with the Agency to determine what portion of the
$107,098 was allocable to the Recovery Act grant,

RESPONSE: CFCAA does not concur as the costs were allowable and allocable.

• return to the Federal Government unallowable costs totaling $53,310,

RESPONSE: CFCAA does not concur, except for the $4,867.23 amount cited above.

• ensure that the Agency uses a method for allocating costs to Federal awards that is compliant with 2 CFR pt. 230,
and

RESPONSE: CFCAA does not concur as CFCAA complies with OMB Circular A-122 which is THE appropriate
governing document cited in its grants.

• ensure that the Agency revises and follows its policies and procedures regarding the adequate documentation of all
costs charged under Federal awards and the charging of costs during a grant period.




                                                           12 

                                                                                                   Page 13 of 13



RESPONSE: CFCAA does not concur as the policies and procedures comply with OMB Circular requirements. In
a proactive manner, CFCAA routinely enhances its policies and procedures.

FOOTNOTES FROM ORIGINAL DRAFT REPORT

' During our audit period, the Florida Department of Conununity Affairs oversaw the CSBG program. However, the
CSBG program is now administered by the Department of Economic Opportunity.

' Per OMB Circular A-133 , §_ .200(a) non-Federal entities that expend $500,000 or more in a year in Federal
awards shall have a single or program-specific audit conducted for that year.

' We excluded these particular items from our calculations of the allocation percentages used in September 2009 and
in April and September 2010.
'In response to our inquiries, the Agency explained that the lodging costs were incurred for senior management and
board members to attend a training conference regarding the legal aspects of grants and increased oversight ofthe
Recovery Act. However, according to the conference agenda, most sessions were geared toward general operations
of a CAA, not specific CSBG program requirements.

'The $2,065 is the net amount of$2,301 in overcharges and $236 in undercharges.
' Agency officials stated that these hours were charged in error.




                                                          13
                                     APPENDIX B: STATE COMMENTS                                                          Page I of3




           Rick Scott                                                                                       Darrick D. McGhee
            GOVERNOR                                                                                     INTERIM EXECUTIVE DIRECTOR

                                             FLORIDA DEPARTMENTof 

                                            ECONOMIC OPPORTUNITY 



                                                        December 31, 2012


 Ms. Lori Pilcher 

 Regional Inspector General for Audit Services 

 Department of Health and Human Services 

 Office of Audit Services, Region IV 

 61 Forsyth Street, SW, Suite 3T41 

 Atlanta, GA 30303 


                     Re:        Audit Response to Report Number A-04-11-01008

 Dear Ms. Pilcher:

       This correspondence is the Florida Department of Economic Opportunity (Department)
 response to your letter dated October 19, 2012. The Department appreciates the opportunity to
 respond to the draft report entitled Central Florida Community Action Agency, Inc., Did Not
 Always Charge Allowable Costs to the Community Services Block Grant - Recovery Act
 Program.

        The following are the Departments statements of concurrence or non-concurrence to the
 Findings and Recommendations in the above referenced draft audit response.

                                     FINDINGS AND RECOMMENDATIONS

         Of the $325,576 in CSBG costs that the State claimed on behalf of the Agency that we
  reviewed, $165,172 was allowable under the terms of the grant and applicable Federal
  regulations. However, the State claimed $107,173 in costs (or 33 percent of reviewed
  expenditures) that may not have been allocable to the Recovery Act grant and thus were
  potentially unallowable. The State also claimed $53,231 in unallowable costs (or 16 percent
  of reviewed expenditures) on behalf of the Agency, including:

       •    $49,294 in costs that were inadequately documented and

       •    $3,937 in costs that were incurred outside of the grant period

        The potentially unallowable costs the State claimed on behalf of the Agency occurred 

  because the Agency's method for allocating costs to Federal awards was not compliant with 

  2 CFR pt. 230. The unallowable costs the State claimed on behalf of the Agency occurred 


    Florida Department of Economic Opportunity 1The Caldwell Building 1107 E. Madison Street 1 Tallahassee, FL 32399-4120
  866.FLA.2345 i 850.245.7105 ! 850.921.3223 Fax www.FioridaJobs.org 1 www.twitter.com/FLDEO www.facebook.com/FLDEO

An equal opportunity employer/program. Auxiliary aids and services are available upon request to individuals with disabilities. All voice
   telephone numbers on this document may be reached by persons using TTY/TDD equipment via the Florida Relay SeNice at 711 .
                                                                                    Page 2 of3
                                     Lori Pilcher, Regional Inspector General for Audit Services
                                                                               December 31, 2012
                                                                                     Page 2 of 3




 because the Agency did not follow its own policies and procedures for providing purchase 

 requisitions, receipts, and other necessary suppmiing documentation for accounts payable 

 transactions and travel-related expenditures. Furthermore, the Agency's policies and 

 procedures were inadequate to ensure that the Agency charged to the grant only those costs 

 properly incurred during the Recovery Act budget period. 


        Because the Agency charged unallowable costs to the Recovery Act grant, these funds
 could not be used to reduce poverty, revitalize low income communities, and empower
 individuals to become fully self-sufficient.

 RECOMMENDATIONS

 We recommend that the State:

    • 	 return to the Federal government $107,173 or work with the Agency to determine
        what portion of the $107,173 was allocable to the Recovery Act grant,

    • 	 return to the Federal Government unallowable costs totaling $53,231,

    • 	 ensure that the Agency uses a method for allocating costs to Federal awards that
        is compliant with 2 CFR pt. 230, and

    • 	 ensure that the Agency revises and follows its policies and procedures regarding the
        adequate documentation of all costs charged under Federal awards and the charging of
        costs during a grant period.


Response:

        The Department has worked with the Central Florida Community Action Agency, Inc.
(CFCAA), on the above il.ndings and recommendations. In doing so, the Department and the
CSBG program manager required the CFCAA to locate all proper documentation for the
questioned allocable portion of $107,173 and the proper documentation totaling $53,231.00
which is stated as unallowable. The CFCAA provided documentation to the Department
November 13, 2012 and is included as back up to this response. The documentation should
verify not only the dollars spent; but, justify what cost and cost category they represent.

        The Department does concur that $4,867.23 of the un-allocable expenses are not properly
charged to the Recovery Act grant. However, the agency has provided 5 batches of data to
provide supporting documentation for all other expenses and costs that are in question. Batches
1 though 4 address costs that are identified on the enclosed spreadsheets labeled "Potentially
Unallowable". Batch 5 addresses the items listed on the spreadsheet as "Unallowable- Non­
salary" and Unallowable- Salary". If the spreadsheet needs to be submitted electronically, we
will do so upon your request.
                                                                                      Page 3 of3
                                      Lori Pilcher, Regional Inspector General for Audit Services
                                                                                December 31, 2012
                                                                                       Page 3 of 3



       The Department worked with the Agency to ascertain the Cost Allocation Plan and the
methodology used for the allocation of direct and indirect costs during the CSBG-ARRA grant
period. The Cost Allocation Plan is enclosed. The methodology used by the Agency for
charging direct costs incurred in the performance of a specific requirement of a grant was
charged to that grant. Indirect costs incurred are allocated using the general methodology of the
portion of the costs or expenses as they apply to grant charged only. A more detailed
explanation from the Agency is also enclosed.

        A copy of the Department approved CSBG-ARRA Attachment A-1 Budget Summary
and the 2009-2010 CSBG-ARRA Amended Attachment L - Scope of Work/Workplan is
provided by the Department from the agency's CSBG-ARRA approved contract is enclosed.
These two documents should be used to justify the questioned expenditures by the CFCAA by
tracking the costs to the applicable line item.

       The Department will be visiting the CFCAA within the year of 2013 to monitor and
ensure that the agency improves its policies and procedures for compliance regarding the
adequate documentation of all costs charged under Federal awards. The monitors will also
ensure during this monitoring period that the Agency understands allocating costs to Federal
awards that is compliant with 2 CFR pt. 230.

         This executed letter is being sent today through your secured system. Due to the amount
of additional documentation provided by CFCAA and the Department, all hard copies of the
documentation will be forthcoming along with the original letter via priority mail, return receipt
service.

       If you have any questions or comments about this report, please do not hesitate to contact
Paula Lemmo, Community Program Manager, at (850) 717-8470 or through email at
Paula.Lemmo@deo.mvflorida.com.


                                             Sincerely,

                                               ~~
                                             Ken Reecy, Assistant Director
                                             Division of Community Development



Enclosure

KR/pl
